HHS/OIG-Audit--"National Heritage Insurance Company Audit of Medicare
Claims by Podiatrists and Optometrists for Comprehensive Nursing Facility Assessments
for Calendar Years 1995 through 1998, (A-09-99-00101)"
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"National Heritage Insurance Company: Audit of Medicare Claims by Podiatrists
and Optometrists for Comprehensive Nursing Facility Assessments for Calendar
Years 1995 through 1998," (A-09-99-00101)
February 16, 2001
Complete
Text of Report is available in PDF format (1.39 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report presents the results of our audit of claims by podiatrists
and optometrists for comprehensive nursing facility (CNF) assessments during
Calendar Years 1995 through 1998. We found that podiatrists and optometrists
in Northern California inappropriately billed Medicare for CNF assessment services
totaling $1,628,369 and $868,027, respectively. NHIC paid $1,125,043
and $525,159 for their claims. Prior to our report, NHIC had issued guidance
to optometrists and implemented edits to prevent payments to podiatrists. Therefore,
we recommend that NHIC: (1) issue a reminder to podiatrists not to bill for
any service they are not licensed to perform, such as CNF assessments, and
(2) implement computer edits to prevent payment of CNF assessments claimed
by optometrists. NHIC representatives agreed with our audit findings and recommendations,
and stated it would educate its providers and pursue a prepayment edit for
optometrists.